<html>
<title> - AIR FORCE NUCLEAR SECURITY</title>
<body><pre>[Senate Hearing 110-625]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-625
 
                       AIR FORCE NUCLEAR SECURITY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2008

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
45-602 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                       Air Force Nuclear Security

                           february 12, 2008

                                                                   Page

Darnell, Lt. Gen. Daniel J., USAF, Deputy Chief of Staff, Air, 
  Space, and Information, Operations, Plans and Requirements; 
  Accompanied by Maj. Gen. Douglas L. Raaberg, USAF, Director for 
  Air and Space Operations, Air Combat Command; and Maj. Gen. 
  Polly A. Peyer, USAF, Director of Resource Integration, Office 
  of the Deputy Chief of Staff for Logistics, Installation and 
  Mission Support................................................     5
Welch, Gen. Larry D., USAF [Ret.], President and CEO, Institute 
  for Defense Analyses...........................................    40

                                 (iii)


                       AIR FORCE NUCLEAR SECURITY

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SR-325, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Bill Nelson, 
Warner, Inhofe, Thune, and Wicker.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; John 
H. Quirk V, security clerk.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Gregory T. 
Kiley, professional staff member; David M. Morriss, minority 
counsel; Christopher J. Paul, professional staff member; Lynn 
F. Rusten, professional staff member; Robert M. Soofer, 
professional staff member; and Kristine L. Svinicki, 
professional staff member.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Jessica L. Kingston.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Christopher Caple, assistant to Senator Bill 
Nelson; Gordon I. Peterson, assistant to Senator Webb; Sandra 
Luff, assistant to Senator Warner; Anthony J. Lazarski, 
assistant to Senator Inhofe; Todd Stiefler, assistant to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
and Erskine W. Wells III, assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. This morning we 
welcome Lieutenant General Daniel Darnell, Major General Polly 
Peyer, and Major General Douglas Raaberg from the Air Force, 
and retired Air Force General Larry Welch, Chairman of the 
Defense Science Board Task Force on Nuclear Weapons. Lieutenant 
General Darnell, who is the Deputy Chief of Staff, Plans and 
Operations, and General Raaberg, the Director of Plans and 
Operations at Air Combat Command, conducted the initial 
investigation into what happened at Minot Air Force and 
Barksdale Air Force Bases last Labor Day weekend and why it 
happened.
    Lieutenant General Peyer, Director of Resource Integration 
for the Deputy Chief of Staff, Logistics, Installations, and 
Mission Support, followed up with an investigation of the 
entire Air Force nuclear enterprise to see if the problems at 
Barksdale and Minot were part of a broader systemic Air Force 
problem. General Welch, at the request of Secretary Gates, 
reviewed the nuclear enterprise of the whole Department of 
Defense (DOD) to see if the problem was bigger than the Air 
Force, and unfortunately it is.
    The issue this morning is very, very serious. Over a 2-day 
period last August, the Air Force lost control and knowledge of 
six nuclear warheads during what had become a routine effort to 
realign nuclear cruise missiles without warheads between Minot 
Air Force Base in North Dakota and Barksdale Air Force Base in 
Louisiana. Through an extraordinary series of consecutive 
failures of process, procedure, training, and discipline, the 
nuclear warheads flew on the wings of a B-52 bomber from Minot 
to Barksdale inside of cruise missiles. No one knew where they 
were or even missed them for over 36 hours. The warheads were 
not discovered until the missiles on which the warheads were 
loaded were being prepared to be moved to the weapons storage 
area after having been unloaded from the B-52 at Barksdale 
after a flight of over 1,400 miles.
    While historically there have been nuclear weapons 
accidents with varying degrees of severity, no breach of 
nuclear procedures of this magnitude had ever occurred 
previously. Luckily, these weapons weren't stolen or 
permanently lost, or accidentally dropped from the wings of the 
B-52 bomber on which they flew, or jettisoned because of bad 
weather or mechanical problems, with the pilots not even aware 
that they were jettisoning nuclear weapons containing deadly 
plutonium.
    Each one of the warheads has the explosive power roughly 
equivalent to seven times the explosive power of the Nagasaki 
nuclear bomb and ten times the Hiroshima nuclear bomb. If 
jettisoned and they didn't explode, incredibly dangerous 
nuclear material could have been spread for miles. That's why 
the safety precautions are so strict, with multiple 
redundancies.
    The three investigations that have been conducted as a 
result of this incident have found that the underlying root 
cause is the steadily eroding attention to nuclear discipline 
in the Air Force and, indeed, the whole DOD. This inattention 
started at the end of the Cold War and has grown substantially 
worse over the last decade. From the results of General 
Raaberg's initial investigation, the Commander's Directed 
Investigation (CDI), it is clear that an erosion of adherence 
to rigid Air Force nuclear procedures and the ``intricate 
system of nuclear checks and balances were either ignored or 
disregarded.''
    The problems existed at both Minot and Barksdale and 
reflect ``a breakdown in training, discipline, supervision, and 
leadership.''
    General Peyer's blue ribbon review finds that the problems 
in the Air Force spread beyond Minot and Barksdale and begin 
with senior leadership and a lack of commitment to the nuclear 
mission and extend to shortcomings in training, inspections, 
and funding.
    General Welch, your report finds that the scope of 
inattention goes even further and is, with a few exceptions, 
pervasive within the DOD.
    There are 132 recommendations from these three reports. 
Some have been implemented. Most have not. This entire episode 
really is a wakeup call. As long as the United States has 
nuclear weapons, they must be handled with the utmost security 
and attention. Many of the details of this incident, the 
investigation, and corrective measures remain classified.
    Given the situation on the Senate floor this morning, with 
I believe nine rollcall votes on amendments to the Foreign 
Intelligence Surveillance Act legislation beginning at 
approximately 10 o'clock, we're going to have, after the 
statements of our witnesses, one brief round of questions and 
then we will reconvene in S-407 of the Capitol for a closed 
session, and that is a change in location. We're going to meet 
in classified session in S-407.
    So, Senator Inhofe, I believe you have an opening 
statement.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. I do, Mr. Chairman. Without objection, I'll 
read Senator Warner's statement. I'm told he asked if I would 
do that.
    First of all, thank you for calling this hearing, and I 
join with you in expressing my deep concern over what may have 
been one of the most serious nuclear weapons handling and 
stewardship incidents in the last 60 years. Since the committee 
first found out about the incident, it has closely monitored in 
a bipartisan manner the ongoing efforts of the Air Force and 
the DOD to ensure accountability and to ensure this sort of 
event does not happen again.
    I join our chairman in welcoming our witnesses and thank 
them for their efforts. I would like to especially thank 
General Welch again for answering the call and thank them for 
their efforts. I would like to especially thank General Welch 
again for answering the call of our Nation to serve, proving 
again that generals never really die; they just keep working.
    Also, I want to welcome General Raaberg, who is a regular 
fixture there at the Vance Air Force Base. When I used to fly 
in my plane in there, he was kind enough to let me land there. 
So we finally had to write a new chapter in the book to make 
something work. Thank you.
    I was impressed with the rapidity with which the Air Force 
began its investigation and coordinating information to Capitol 
Hill. The CDI was a logical first step. The Air Force-wide blue 
ribbon review and defense-wide Defense Science Board report on 
nuclear surety were also well-conceived efforts to get at the 
root problems and causes.
    While the CDI concludes this to have been an isolated 
incident and the result of the actions of just a few airmen, 
there are other conclusions that speak to long-term degradation 
of discipline and adherence to established procedures. The lack 
of attention to details spanned two separate military 
installations. These conclusions seem at odds with each other. 
The witnesses should be expected to reconcile the differences.
    One of the major tenets of our military is accountability. 
Our military leaders must be accountable to civilian authority 
and military subordinates accountable to our military leaders. 
Without a strong reliance on the chain of command, we are 
weakened as a Nation. I bring this up in light of where 
accountability has been assigned in this incident. The 
witnesses will be asked if they are satisfied that we have 
properly placed accountability where it should reside.
    One of the principal conclusions of the blue ribbon review 
is that the Air Force is spread thin because it has been at war 
for over 17 years. While I share the concern for the stress 
that our airmen have been under the past 2 decades, I would ask 
how that stress was allowed to manifest itself in the 
procedures used to handle our nuclear weapons and what 
safeguards were sacrificed that allowed that to happen.
    How did we allow our adherence to nuclear codes of conduct 
to erode to this point? During the Cold War our forces handled 
over 9,000 deployed nuclear warheads. Under our Moscow Treaty 
obligations, we will reduce to no more than 2,200 warheads by 
2012. But even if we had just one nuclear weapon, the point, as 
General Welch's report states, is that the complexity of the 
nuclear enterprise is not reduced. As long as we have these 
weapons, their military and political nature demands the most 
intense attention to their proper care. We must sharpen our 
focus on the extra care required in this nuclear mission.
    Of greatest concern to me is how we ensure the events of 
August 2007 don't happen again. We need to focus more attention 
on how our inspection processes and procedures failed to alert 
us to the decline in discipline that led to the incident. 
Additionally, we need to reinforce our inspections and 
readiness reviews to understand and heed the signals of decline 
and reverse the downturn and before such incident happens 
again.
    I look forward to your testimony and appreciate having this 
hearing, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Chairman Levin, thank you for calling this hearing to receive 
testimony on the very grave and serious incident of the unauthorized 
movement of nuclear weapons from Minot Air Force Base, ND, to Barksdale 
Air Force Base, LA, in August 2007.
    I join with you in expressing my deep concern over what may have 
been one of the most serious nuclear weapons handling and stewardship 
incidents in last 60 years. Since the committee first found out about 
the incident, it has closely monitored, in a bipartisan manner, the 
ongoing efforts of the Air Force and the Department of Defense to 
assure accountability and ensure this sort of event does not happen 
again.
    I join our chairman in welcoming our witnesses, and thank them for 
their efforts. I would like to especially thank General Welch for once 
again answering the call of our Nation to serve, proving again that 
generals never really do retire.
    I was impressed with the rapidity with which the Air Force began 
its investigation, and coordinating information to Capitol Hill. The 
Command Directed Investigation was a logical first step. The Air Force-
wide Blue Ribbon Review and the Defense-wide Defense Science Board 
Report on Nuclear Surety were also well conceived efforts to get to the 
root problems and causes.
    While the Command Directed Investigation concludes this to have 
been an isolated incident and the result of the actions of just a few 
airman, there are other conclusions that speak to long-term degradation 
of discipline and adherence to established procedures. The lack of 
attention to detail spanned two separate military installations. These 
conclusions seem at odds with each other. The witnesses should be 
expected to reconcile the differences.
    One of the major tenets of our military is accountability. Our 
military leaders must be accountable to civilian authority, and 
military subordinates accountable to our military leaders. Without a 
strong reliance on the chain-of-command, we are weakened as a nation. I 
bring this up in light of where accountability has been assigned in 
this incident. The witnesses will be asked if they are satisfied that 
we have properly placed accountability where it should reside.
    One of the principle conclusions of the Blue Ribbon Review is that 
the Air Force is spread thin, because it has been at war for over 17 
years. While I share the concern for the stress our airmen have been 
under the past two decades, I would ask how that stress was allowed to 
manifest itself in the procedures used to handle our nuclear weapons, 
and what safeguards were sacrificed that allowed that to happen.
    How did we allow our adherence to nuclear codes of conduct to erode 
to this point? During the Cold War, our forces handled over 9,000 
deployed nuclear warheads. Under our Moscow Treaty obligations, we will 
reduce to no more than 2,200 warheads by 2012. But, even if we had just 
one nuclear weapon, the point--as General Welch's report states--is 
that the complexity of the nuclear enterprise is not reduced. As long 
as we have these weapons, their military and political nature demands 
the most intense attention to their proper care. We must sharpen our 
focus on the exquisite care required for this nuclear mission.
    Of greatest concern to me is how we ensure the events of August 
2007 do not happen again. We need to focus more attention on how our 
inspection processes and procedures failed to alert us to the decline 
in discipline that led to this incident. Additionally, we need to 
reinforce our inspections and readiness reviews to understand and heed 
the signals of decline, and reverse the downturn, before such incidents 
happen.
    I look forward to your testimony, and the question and answer 
period. Our Nation deserves to be able to sleep at night knowing our 
nuclear arsenal is secure, in good hands, and will remain so. Our 
efforts here today and in the future must work towards that 
aim<plus-minus>.

    Chairman Levin. Thank you, Senator Inhofe.
    I understand now that General Darnell is going to make an 
opening statement on behalf of our three Air Force witnesses; 
is that the intent?

STATEMENT OF LT. GEN. DANIEL J. DARNELL, USAF, DEPUTY CHIEF OF 
   STAFF, AIR, SPACE, AND INFORMATION, OPERATIONS, PLANS AND 
  REQUIREMENTS; ACCOMPANIED BY MAJ. GEN. DOUGLAS L. RAABERG, 
    USAF, DIRECTOR FOR AIR AND SPACE OPERATIONS, AIR COMBAT 
   COMMAND; AND MAJ. GEN. POLLY A. PEYER, USAF, DIRECTOR OF 
 RESOURCE INTEGRATION, OFFICE OF THE DEPUTY CHIEF OF STAFF FOR 
          LOGISTICS, INSTALLATION AND MISSION SUPPORT

    General Darnell. Yes, sir.
    Chairman Levin. Then, General Welch, the former Chief of 
Staff of the Air Force, will make a statement about the Defense 
Science Board (DSB) study.
    So we'll start with you, General Darnell. Thank you all for 
being here and for your work on this matter.
    General Darnell. Thank you, Mr. Chairman. Chairman Levin, 
Senator Inhofe, and distinguished members of the committee: 
Thank you for the opportunity to provide you the Air Force way 
ahead for our nuclear enterprise. Let me request that our 
written statement be entered for the record.
    Chairman Levin. It will be.
    General Darnell. Thank you, sir.
    Throughout the history of the United States Air Force, our 
professionalism and dedication have guaranteed the soundness 
and surety of Air Force crews and weapons. From our Service's 
beginning, we have earned the trust of our national leadership 
and, most importantly, the trust of the American public. 
Unfortunately, in late August 2007 the Air Force flew weapons 
from Minot Air Force Base, North Dakota, to Barksdale Air Force 
Base in an unauthorized manner.
    It's important to note that during the incident there was 
never any unsafe condition and the incident was promptly 
reported to our national leadership, including the Secretary of 
Defense and the President. These weapons were secure and always 
in the hands of America's airmen. However, as airmen we are 
accountable and we will assure the American people that the Air 
Force standards they expect are being met.
    The commander of Air Combat Command immediately initiated a 
CDI. Without delay, the Secretary of the Air Force and the 
Chief of Staff of the Air Force engaged and initiated a series 
of specific actions: One, an immediate, successful 100 percent 
stockpile verification of U.S. nuclear weapons in the Air Force 
custody; two, a standdown of U.S. Air Force nuclear units for 
extra training and to emphasize attention to detail; three, 
Chief of Staff of the Air Force messages to all major commands 
and each individual airman on standards, discipline, and 
attention to detail, highlighting mission focus and checklist 
discipline; four, 100 percent limited nuclear surety 
inspections of all nuclear-capable units, with Defense Threat 
Reduction Agency oversight; five, Secretary of the Air Force 
visits to Barksdale Air Force Base, LA, and Minot Air Force 
Base, ND; and lastly, a blue ribbon review of policies and 
procedures focused on the entire Air Force nuclear enterprise. 
This review took into account operations, maintenance, storage, 
handling, transportation, and security.
    The Air Force is working in partnership with other Federal 
agencies both inside and outside the DOD to conduct this 
analysis.
    Additionally, the Secretary of Defense requested General 
Larry Welch to lead a DSB review of DOD-wide nuclear surety.
    The root causes identified for the specific incident were 
unit level leadership and discipline breakdown among a small 
group of airmen at Barksdale Air Force Base and Minot Air Force 
Base. As a result of this incident, seven leaders within the 
Air Force have been removed from their positions, including one 
wing commander and two group commanders. Additionally, 90 
people were temporarily decertified from duties associated with 
the nuclear mission.
    Many of the actions following the incident are still 
ongoing. The blue ribbon review finds that the Air Force's 
policies, processes, and procedures are sound and that the Air 
Force commitment to the nuclear enterprise is strong. However, 
there are opportunities for improvement in the Air Force's 
nuclear enterprise.
    The Air Force Nuclear General Officer Steering Group has 
assessed, validated, and assigned responsibility for 
implementing the recommendations from the commander-directed 
investigation, the blue ribbon review, and the DSB. As of the 
time of this hearing, nearly one-quarter of the recommendations 
are complete. These recommendations transcend all levels of the 
Air Force. Common throughout the CDI, the blue ribbon review, 
and the DSB are recommendations that focus the nuclear 
enterprise on the level of experience, knowledge, frequency of 
training, exercises, organizations, standardization, 
evaluation, and inspections.
    The Air Force is committed to continuously improving its 
ability to fulfill the Nation's nuclear mission, grounded on 
our core values of integrity, service, and excellence, because 
it is a credible nuclear deterrent that convinces potential 
adversaries of our unwavering commitment to defend our Nation. 
The Air Force portion of the Nation's nuclear deterrent is 
sound. We will take every measure necessary to continue to 
provide safe, secure, reliable nuclear surety to the American 
public.
    Thank you again for the opportunity to appear before you 
today.
    [The joint prepared statement of General Darnell, General 
Peyer, and General Raaberg follows:]

Joint Prepared Statement by Lt. Gen. Daniel J. Darnell, USAF; Maj. Gen. 
      Polly A. Peyer, USAF; and Maj. Gen. Douglas L. Raaberg, USAF

                            I. INTRODUCTION

    Chairman Levin and distinguished members of the committee, thank 
you for the opportunity to provide you the Air Force way ahead for our 
nuclear enterprise. Since the weapons-transfer incident of 30 August 
2007, we have initiated multiple levels of review to ensure we have not 
only investigated the root causes of the incident, but more importantly 
taken this opportunity to review Air Force policies and procedures in 
order to improve the Air Force's nuclear capabilities. The Commander of 
Air Combat Command commissioned the Commander Directed Investigation 
(CDI), a tactical level investigation that focuses on the facts of the 
incident and determines accountability. The Chief of Staff of the Air 
Force (CSAF) commissioned the Blue Ribbon Review (BRR), an operational-
level review that focuses on the entire Air Force enterprise including 
both the aircraft and Intercontinental Ballistic Missile (ICBM) and 
reviews policies, procedures. The Secretary of Defense commissioned the 
Defense Science Board (DSB) review, a strategic-level independent 
review that focuses on the Department of Defense (DOD) enterprise and 
joint organizations. The Air Force takes its nuclear obligations 
seriously, and will continue to take any measure necessary to deliver 
this strategic capability safely. Consequently, we have identified the 
actions required to both enhance our strengths and correct those areas 
needing improvement.
History of Incident
    The United States Air Force has underwritten the national strategy 
for over 60 years by providing a credible deterrent force, and we 
continue to serve as the ultimate backstop, dissuading opponents and 
reassuring allies by maintaining an always-ready nuclear arm. 
Throughout our history, our professionalism and dedication has 
guaranteed the soundness and surety of Air Force crews and weapons on 
nuclear alert. From its beginning our Service has earned the trust of 
our national leadership and most importantly, the trust of the American 
public.
    Unfortunately, in late August 2007, the Air Force flew nuclear 
weapons from Minot Air Force Base (AFB), ND, to Barksdale AFB, LA, in 
an unauthorized manner. Immediately, the Commander of Air Combat 
Command initiated an investigation into the incident. Soon after that 
investigation began, the Air Force began to analyze its policies, 
programs, procedures, and processes involving nuclear assets. 
Furthermore, the Air Force is working in partnership with other Federal 
agencies both inside and outside the DOD to conduct this analysis.
    Without delay, the Secretary of the Air Force (SECAF) and the CSAF 
engaged and initiated a series of eight specific actions:

          (1) An immediate, successful 100 percent stockpile 
        verification of U.S nuclear weapons in the Air Force custody.
          (2) A stand-down of U.S. Air Force nuclear units for extra 
        training and to emphasize attention to detail.
          (3) A CDI, a tactical-level incident-related investigation, 
        to identify the root causes that led to the weapons-transfer 
        incident, which had already begun.
          (4) CSAF messages to all Air Force major commands and each 
        individual airman on standards, discipline, and attention to 
        detail, highlighting mission focus and checklist discipline.
          (5) 100 percent Limited Nuclear Surety Inspections of all 
        nuclear-capable units, with Defense Threat Reduction Agency 
        (DTRA) oversight. This was in addition to previously scheduled 
        NSIs.
          (6) A SECAF letter to all airmen highlighting discipline and 
        responsibility.
          (7) SECAF visits to Barskdale AFB, LA, and Minot AFB, ND.
          (8) A CSAF-chartered BRR of policies and procedures focused 
        on the entire Air Force nuclear enterprise.

    At the conclusion of the CDI, the SECAF and the Assistant Deputy 
Chief of Staff for Operations, Plans, and Requirements, then-Major 
General Richard Newton, held a press conference to outline the incident 
and summarize the findings of the initial investigation. Also during 
that press conference, General Newton discussed accountability measures 
that were taken as a result of the unauthorized weapons transfer. Seven 
leaders within the Air Force have been removed from their position, 
including one wing commander and two group commanders. Additionally, 90 
people were temporarily decertified from duties associated with the 
nuclear mission.
    Many of the actions following the incident are ongoing. The BRR 
represents a comprehensive, operational-level review of policies and 
procedures of the Air Force's strategic nuclear enterprise including 
aircraft, missiles, and sustainment missions. This BRR is an 
opportunity for the Air Force to improve its commitment to a sound 
nuclear enterprise. The nuclear surety inspections are complete with 
the exception of the 5th Bomb Wing at Minot AFB, which must be 
recertified for its nuclear mission. Additionally, the Secretary of 
Defense requested General (retired) Larry Welch to lead a DSB review of 
DOD-wide nuclear weapons surety.

                            II. ROOT CAUSES

    We want to assure you that during the incident there was never an 
unsafe condition, and the incident was promptly reported to our 
national leadership, including the Secretary of Defense and the 
President. These weapons were secure and always in the hands of 
America's airmen. However, as Airmen, we are accountable and we will 
assure the American people that the Air Force standards they expect are 
being met. In addition, the wings at Barksdale AFB and Minot AFB are 
units with a proud heritage. It is important that we act to restore the 
confidence in these units and move ahead. Rest assured, we will.
    The root causes identified for the specific incident were unit-
level leadership and discipline breakdown at Barksdale AFB and Minot 
AFB. These breakdowns were due to leadership failures and a declining 
focus on the strategic nuclear bomber mission. Over time, the breakdown 
of leadership and discipline among a small group of Airmen at Barksdale 
AFB and Minot AFB fostered an environment which eroded the strict 
adherence to established procedures.
    Specifically, one of the two pylons for this flight was not 
properly prepared because an informal scheduling process subverted the 
formal scheduling process. This was the result of a lack of attention 
to detail and lack of adherence to well-established Air Force 
guidelines, technical orders, and procedures.
    In addition to discipline breakdowns at the unit level, a declining 
focus on the strategic nuclear bomber mission was cited as a root cause 
in the CDI. Since the end of the Cold War, aircraft units have taken on 
conventional commitments in the midst of an ever-increasing operational 
tempo and a continuously-shrinking force. Thus, the role of the 
strategic nuclear mission, especially in dual-tasked aircraft units, 
competed for time, attention, and focus. The turning point of this 
diminished focus began when aircraft came off nuclear alert status. At 
the same time, the Air Force began 17 years of continuous combat 
including conventional airpower commitments across the spectrum of 
regular and irregular war in numerous theaters of operation. Training 
in nuclear procedures became less frequent without the daily activity 
required by nuclear alert conditions coupled with the expanded 
commitments of dual-tasked units. As a result, nuclear-related 
experience-levels have declined within bomber and dual-capable units.

                             III. WAY AHEAD

    The BRR is a comprehensive, thorough, operational-level review of 
Air Force policies and procedures of the Air Force's nuclear 
enterprise. Senior leadership in the Air Force sees the BRR as an 
opportunity to improve a sound nuclear enterprise. As such, the BRR 
examines the organizational structure, command authorities, personnel, 
and assignment policies, and the education and training associated with 
nuclear weapons. This analysis takes into account operations, 
maintenance, storage, handling, transportation, and security. The BRR 
finds that the Air Force policies, processes, and procedures are sound 
and that the Air Force commitment to the nuclear enterprise is strong. 
However, there are opportunities for improvement in the Air Force's 
overall support to the nuclear enterprise. Specifically, the BRR draws 
five general conclusions and offers recommendations to better organize, 
train, and equip the Air Force nuclear enterprise.
    The BRR's five general conclusions are:

          (1) Nuclear surety in the Air Force is sound and the nuclear 
        weapons inventory in the Air Force is safe, secure, and 
        reliable.
          (2) Air Force focus on the nuclear mission has diminished 
        since 1991, while the conventional commitment has expanded, the 
        operations tempo has increased, and the number of airmen has 
        declined. Operations Northern Watch, Southern Watch, Allied 
        Force, Enduring Freedom, and Iraqi Freedom are but the most 
        notable examples of the operations we have undertaken since 
        1991.
          (3) The nuclear enterprise in the Air Force works despite 
        being fragmented into a number of commands. For example, 
        nuclear surety in the Air Force is sound among both the ICBM 
        force under Air Force Space Command and the nuclear-strike 
        aircraft under Air Combat Command.
          (4) The declining amount of Air Force nuclear experience led 
        to waning expertise. During the decline in nuclear experience, 
        conventional experience grew exponentially. Today, with almost 
        half the airmen it had during the Cold War, the Air Force 
        fulfills a far greater number of conventional commitments, 
        world-wide, than it did just 17 years ago.
          (5) The Air Force nuclear surety inspection programs need 
        standardization.

    The BRR's recommendations range in scope and scale and can be 
categorized into those that can quickly be accomplished, those that are 
moderately complex and require more time, and those that require 
substantial resources and time. For example, strengthening the 
relationship with DTRA can be accomplished with relative ease; 
developing a comprehensive list of all critical nuclear-related 
personnel positions in other agencies will require some time; and 
resourcing a long-range replacement and recapitalization program for 
aging nuclear weapon systems and nuclear support equipment will require 
substantial resources and time.
    The Air Force Nuclear General Officer Steering Group (AFNGOSG), an 
entity with 20 general officers from all disciplines across the Air 
Force nuclear enterprise and originally established in 1997, has 
assessed, validated, and assigned responsibility for implementing the 
recommendations from the CDI, the BRR, and the DSB. One of those 
recommendations already completed is for the chair of the AFNGOSG to be 
upgraded to a three-star general, specifically, the Deputy Chief of 
Staff for Operations, Plans, and Requirements. Given the collective 
nuclear experience on the AFNGOSG, we will depend on this group to 
track and ensure broadest implementation of the outstanding 
recommendations. As of the time of this hearing, nearly one-quarter of 
those recommendations are complete.
    These recommendations extend to all levels of the Air Force. For 
example, one of the recommendations is to restructure the Air Staff to 
increase the visibility and focus of the nuclear enterprise, and the 
AFNGOSG is currently evaluating a number of alternatives to achieve 
this goal. Other recommendations include reviewing how the Air Force 
presents forces to combatant commanders, and the commonality of nuclear 
forces among the different Numbered Air Forces. Common throughout the 
CDI, the BRR, and the DSB are recommendations that focus on the level 
of experience, knowledge, frequency of training, exercises, 
inspections, standardization and evaluation, within our nuclear 
enterprise.

                              IV. CLOSING

    The Air Force is committed to continuously improving its ability to 
fulfill the Nation's nuclear mission, grounded on our core values of 
integrity, service, and excellence because it is a credible nuclear 
deterrent that convinces potential adversaries of our unwavering 
commitment to defend our Nation. The Air Force portion of the Nation's 
nuclear deterrent is sound, and we will take every measure necessary to 
continue to provide safe, secure, reliable, nuclear surety to the 
American public.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you, General.
    General Welch?

 STATEMENT OF GEN. LARRY D. WELCH, USAF [RET.], PRESIDENT AND 
              CEO, INSTITUTE FOR DEFENSE ANALYSES

    General Welch. Thank you, Senator Levin. I can be very 
brief since your opening comments addressed many of the issues 
in our report.
    Our report contains specific findings and recommendations 
on each of the three levels of cause factors. It was released 
yesterday. It is unclassified. It is 27 pages long, including 
appendices. Those three levels of cause factors are:
    First, the proximate cause that is the failure to sustain 
and follow credible procedures and processes. Those 
deficiencies have been addressed in detail by the Air Force 
reports.
    Second is focus and that has to do with the dramatic 
reduction in the number of senior DOD officials with dedicated 
focus on the nuclear enterprise.
    The third level is the environment in which the enterprise 
operates, and that has to do with the perception at all levels 
in the nuclear enterprise that the Nation and its leadership do 
not value the nuclear mission and the people who perform that 
mission.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Welch. We have specific recommendations for 
addressing each of those three and I'll be pleased to address 
those during questions. Thank you, sir.
    Chairman Levin. Thank you, General.
    There are only a few of us here, so we should have some 
time. Let's try 6 minutes so we make sure we get in at least 
one round before the first vote occurs in the Senate.
    General, I'm a little taken aback by your statement that 
there was never a safety issue and they were always under the 
control of American pilots. Did the pilots know they had 
nuclear weapons on board?
    General Darnell. Sir, they did not.
    Chairman Levin. So, when you say they were under the 
control of the pilots, not knowing that you have nuclear 
weapons on board makes a difference, doesn't it?
    General Darnell. Yes, sir, it does. The intent behind that 
statement is to make it clear that they never migrated off the 
aircraft anywhere else.
    Chairman Levin. In terms of safety, when nuclear weapons 
are on a plane and those planes are on a flight line, are there 
special precautions taken?
    General Darnell. Yes, sir, it's increased security on the 
flight line with security forces.
    Chairman Levin. Was that increased security present here?
    General Darnell. At Minot it was not, sir.
    Chairman Levin. It was not. Why do we have increased 
security when we have nuclear weapons on a plane on a flight 
line? Why do we provide that additional security?
    General Darnell. To ensure security of the weapon itself, 
because of the gravity of, obviously, anyone taking control of 
the weapon that should not have it.
    Chairman Levin. The absence of that security at Minot 
represents a significant shortfall, does it not?
    General Darnell. It did in this case, sir, yes, sir.
    Chairman Levin. Now, in terms of what happened here and the 
failures that occurred, let's go through very quickly what 
happened here: and stop me at any point here if what I'm saying 
is not accurate. The mistake was putting a pylon, which has six 
cruise missiles on it--and these cruise missiles were not 
supposed to have nuclear weapons loaded in them; they were 
supposed to have dummies, is that correct?
    General Darnell. That's correct, sir.
    Chairman Levin. So the pylon that was loaded in error had 
nuclear weapons on it and these were the checks that failed us, 
these were the actions that were supposed to be taken that 
weren't taken. First, at Minot the payload checks were not 
performed by the handling team. Second, there was a deputy 
maintenance chief at Minot who noted the discrepancy and he 
never reported back to his supervisor that discrepancy between 
the pylon that was supposed to be on and the number of that 
pylon and the one that was on there. So the second failure was 
the deputy who noted the discrepancy not reporting it back to 
his supervisor.
    Then the deputy did not request verification of the 
payload. The tow driver at Minot, who's supposed to perform 
payload checks, did not do so. The munitions scheduling officer 
or office at Minot failed to verify the status of the pylon as 
required prior to giving permission to move the pylon. The air 
crew is supposed to verify the missile status and the payload 
on all missiles, and they did not do so. The aircraft commander 
did not verify that each of the missiles had been checked and 
did not, as required, make an entry in his pre-flight log.
    Now, so far am I on target?
    General Darnell. Senator Levin, I think that's pretty 
accurate.
    Chairman Levin. Okay. Now, that's a lot of mistakes, a lot 
of checks and balances here that are supposed to work. None of 
those worked in this case. I think you folks in the Air Force 
would be the first to acknowledge the severity of not knowing 
that you're dealing with nuclear weapons and not taking the 
appropriate steps to secure them. You live with this every day. 
You understand the implications of the lack of security or lack 
of awareness that you have a nuclear weapon on board in terms 
of the potential for accident, and so I don't think you need a 
lecture from me at least on that subject. You're aware that 
this is a very significant failure, the likes of which we don't 
think has ever occurred before and hopefully will never occur 
again.
    How many folks here would you say failed to carry out some 
duty that they were obligated to perform? How many different 
people along the line here?
    General Darnell. Senator Levin, I'm going to defer to the 
officer that did the investigation, but we initially 
decertified 90 personnel.
    Chairman Levin. How many?
    General Darnell. 90. Now, as General Raaberg did his 
investigation he found that not all 90 were involved and 
restored their status. But initially we had 90 that were 
decertified.
    I'll ask General Raaberg if he'd like to add anything to 
that.
    Chairman Levin. How many approximately failed to perform a 
duty that they were obligated to perform?
    General Raaberg. Sir, as you've aptly indicated, there were 
five specific procedures broken the day before and the day of 
the transfer of the tow. It's approximately 10 individuals 
involved in all five of those, not following the rules and not 
following the procedures.
    Sir, you also mentioned that there were effectively three 
scheduling errors that caused them to actually transfer a 
nuclear-loaded pylon set of missiles to the aircraft. Sir, at 
that point the number of individuals involved in that is at 
least 10 to 15 in that particular realm.
    Chairman Levin. So a total of 25?
    General Raaberg. Sir, that's about right, plus the greater 
architect of the organizations and the units involved.
    Chairman Levin. So, and this will be my last question; have 
disciplinary actions been taken to date? If so, without telling 
us who and what for the time being, just tell us, because these 
are personnel actions which I think would appropriately leave 
for a different setting. But against how many of those 
approximately 25 people would you say some action has been 
taken?
    General Darnell. Senator, it's my understanding that 13 
were administered Uniform Code of Military Justice action. A 
total of 15 were administratively removed or affected by the 
incident.
    Chairman Levin. They've not been returned?
    General Darnell. No, sir. Some have been returned, but 
received punishment for what, obviously, had occurred.
    Chairman Levin. Thank you.
    Senator Warner or Senator Inhofe.
    Senator Warner. Senator Inhofe.
    Senator Inhofe. Just a couple of brief questions. First of 
all, I recognized General Raaberg and his fine service at Vance 
Air Force Base. I didn't say anything about General Peyer at 
Tinker Air Force Base. So this is old home week. I welcome you 
here.
    General Welch, as I said when I was reading the statement 
of Senator Warner, you've come back out and I appreciate very 
much all of the work and the service that you continue to 
provide. Your report includes 16 recommendations to strengthen 
nuclear security. One of the recommendations was that the 
Secretary of Defense establish a mechanism to ensure that the 
lessons from the incident on August 30 produce institutional 
and environmental changes of lasting attention. My question 
would be, what mechanisms do you think we need to make sure 
that our successors aren't here 20 years from now addressing 
this same subject?
    General Welch. Let me answer that as briefly as I can. The 
reason for that recommendation is that the task force that I 
chair has been in business since 1992, although previously 
under a different name. Over the years there have been any 
number of deficiencies identified by the task force, by other 
DSB reports, though none of them as serious as this. In each 
case the deficiencies were addressed, corrective actions were 
implemented, but they didn't endure. Over time attention faded 
away, and then we encountered a new set of deficiencies.
    That's the reason for the recommendation. Our 
recommendations regarding the level of focus in the Department, 
are to ensure there are flag officers and senior civilians at 
the right place, at the right level, whose daily focus is on 
the nuclear mission, and to insist that be sustained. I believe 
that's what's required in order to help ensure that this 
intense attention that we're seeing right now doesn't once 
again fade away in the future.
    Senator Inhofe. General Darnell, when this first happened 
the first thing I did was draw a line between Minot and 
Barksdale, and it went right over Tulsa, OK. So I'm a little 
sensitive to the route there.
    I think the most important question to ask, and you've all 
touched on it, but it wasn't really all that specific. Were the 
weapons ever armed or in danger of being armed? In other words, 
were the American people ever at risk of having a nuclear 
weapon get stolen or exploding?
    General Darnell. Senator, the weapons were never armed.
    Senator Inhofe. They were never armed. I think there's an 
assumption everybody knows that, but certainly that wasn't 
covered very well back in August.
    General Darnell. The pylon itself was not powered up and as 
a result the weapons were not armed either.
    Senator Inhofe. They're never armed during transporting?
    General Darnell. No, sir. This was what's called a tactical 
ferry mission. Obviously, we were anticipating a dummy load on 
the aircraft and there'd be no reason to power the pylon up.
    Senator Inhofe. I think it's worth repeating.
    I don't have any more questions.
    Chairman Levin. Thank you.
    Senator Nelson and then Senator Thune. Hopefully, if you 
get your rounds in we will be able to go to S-407 at that 
point. If not, we'll come back here. Senator Warner's waiving 
his questions?
    Senator Warner. I want to do that, but I want to follow on 
just one point that my distinguished colleague brought out. In 
no way do we forgive, or anyone else, the sloppiness and the 
breakdown in discipline and training and so forth. But the 
weapons were never armed, is that correct?
    General Darnell. That's correct, Senator.
    Senator Warner. As a consequence we could say that the 
American public was never in danger if there'd been an 
accidental dropping or otherwise of these weapons; is that 
correct?
    General Darnell. Yes, sir, that's correct.
    Senator Warner. Good.
    General Welch, it's nice to see you again. It's a 
wonderful, wonderful time we had together over these 30 years 
Senator Levin and I have been on this committee. Glad that 
you're still very active on behalf of the interests of our 
country and your beloved Air Force.
    Thank you.
    Chairman Levin. Just to clarify something that I said. Now, 
if these weapons had been jettisoned for whatever reason--there 
was mechanical failure or they had been jettisoned over water 
for whatever reason--could they represent a dangerous release 
of plutonium? Could that happen?
    General Darnell. Senator, it's not my understanding that 
that would be the case, but we'll have to clarify that for you.
    Chairman Levin. You're saying that if these weapons were 
jettisoned over land----
    General Darnell. Yes, sir.
    Chairman Levin.--that there could not be a release upon the 
destruction of these when they smashed into the ground, that 
there could not be a release of plutonium? Is that what you're 
saying, or you don't know?
    General Darnell. Sir, I don't know. I'd have to confirm 
whether that would be or not.
    Chairman Levin. Does anyone here know? My understanding is 
it could be dangerous.
    General Peyer. I'm a logistician, not a technician. But 
knowing the knowledge of how a system is developed, and that's 
part of the reliability of the system, is that there is no 
inadvertent detonation of the system----
    Chairman Levin. No, I'm not talking about detonation. I'm 
talking about could the plutonium be released inadvertently if 
this weapon were smashed into the ground from 15,000 feet.
    General Peyer. That piece I would not know.
    [The information referred to follows:]

    Plutonium dispersal is virtually impossible without a high 
explosive detonation. The W80 warhead is designed to resist detonation 
and remain intact in an accident or jettison scenario. The W80 utilizes 
insensitive high explosive (IHE) technology. IHE is designed to 
decompose rather than detonate in a fire. The weapons were never armed 
and the release of plutonium would have been highly unlikely in the 
event of a crash or jettisoning scenario.

    Chairman Levin. Do you know, General Welch?
    General Welch. Yes, sir. The plutonium can't be released 
unless there's a high explosive detonation.
    Chairman Levin. There's no possibility of release if 
jettisoned and it smashes into the ground?
    General Welch. Not unless there is a high explosive 
detonation, and that's very, very unlikely.
    Chairman Levin. Unlikely. Impossible?
    General Welch. I'm reluctant to say anything is impossible. 
Let me say I can't imagine how it could happen.
    Chairman Levin. All right. Then why are these so dangerous? 
Why do they need special inspection and security when they're 
on a flight line? Why is it important that a pilot even know 
that he has a nuclear weapon on board?
    General Welch. Because with a high explosive detonation you 
will indeed scatter plutonium. So the concern is to ensure that 
no one can have access to these weapons in a way that they can 
intentionally create a high explosive detonation. There are 
ways to do that.
    Chairman Levin. Thank you.
    Senator Bill Nelson.
    Senator Bill Nelson. Mr. Chairman, that's the appropriate 
response. There's no assumption of detonation; however, in the 
crash of two planes in the late 60s or early 70s, plutonium was 
spread all over the place, and plutonium is lethal. Isn't that 
correct, General Welch?
    General Welch. Absolutely.
    Senator Bill Nelson. Mr. Chairman, may I have my official 
opening statement put into the record?
    Chairman Levin. It will be.
    [The prepared statement of Senator Bill Nelson follows:]
               Prepared Statement by Senator Bill Nelson
    Thank you, Mr. Chairman. When I learned about the nuclear weapons 
incident that occurred in August 2007, I was stunned. This is the 
probably the most egregious breach of nuclear weapons procedures that 
has ever occurred. Six nuclear weapons were unaccounted for, for over 
36 hours.
    To the Air Force's credit an investigation was immediately opened. 
General Raaberg, it appears that you had full access to everything you 
needed to complete your investigation and that your report was 
forthright and uncensored. I hope that that is truly the case.
    There have now been three reports. What all three of the reports 
have revealed is that the events of August 2007 were not simply one-
time errors, but an indication of a long erosion of discipline and 
attention to nuclear matters in the Air Force.
    As General Welch stated in his report for the Defense Science 
Board, ``The process and systemic problems that allowed such an 
incident have developed over more than a decade and have the potential 
for much more serious consequences.'' But, as General Welch also said 
it can be a ``just-in-time rescue if lasting corrective actions are 
implemented now.''
    So, for this hearing today, the question is: Now what?

    Senator Bill Nelson. General Darnell, these events show 
that the nuclear procedures were ignored by most everyone, and 
these procedures are designed to force multiple redundant 
opportunities to ensure that the weapons are safe and they're 
secure and that they're accounted for. In this case, the 
sloppiness and the lack of discipline and the lack of respect 
for the process didn't just happen overnight, and fixing the 
problems are going to take a while.
    How long will it take to fix the problems and once fixed 
what steps should the Air Force take to ensure that we're not 
going to have this problem again?
    General Darnell. Senator, very good question. We have 124 
recommendations that we are taking action on. 41 are complete. 
I would hesitate to give you an exact time line, but obviously 
we are very quickly implementing as many of the recommendations 
as we possibly can.
    Where we started from an organization standpoint is we put 
some very key senior leaders into some key positions. As 
General Welch has mentioned before, I very soon will have a 
two-star general officer that will be in charge of nuclear 
matters on the Air Staff that reports to me, and that will be 
their sole duty.
    We have a Nuclear General Officer Steering Group that I 
just chaired 2 weeks ago. We had representatives from every 
MAJCOM there, reviewed all of these 124 recommendations. We 
were able to assign Office of Primary Responsibility, in other 
words those responsible for implementing, and we're still 
working through exactly what the time lines will be.
    The Nuclear Weapons Center we stood up nearly 2 years ago 
at Albuquerque. We'll have a brigadier general in charge of 
that organization in 2 months.
    So from the top down, we have put some people in some key 
positions to ensure that we can get these recommendations 
implemented. I'll point out also that we put some other 
officers in some pretty key positions as well. Brigadier 
General Jonathan George is going to the Department of Energy. 
We have Lieutenant General Frank Klotz, who is our Assistant 
Vice Chief of Staff of the Air Force; Major General Dick Weber, 
who is my deputy, as well as Brigadier General Don Alston. I 
won't go through their bona fides, but they've all been 
squadron, group, and wing commanders, whether it be in the 
missile field or bomber organizations.
    Senator Bill Nelson. General Welch, General Darnell was 
talking about all how they're correcting it in the Air Force. 
But in your investigation, this spills over into the DOD as 
well. So what do you think DOD is going to do to make sure this 
doesn't happen again?
    General Welch. As you say, we found this change in the 
level of focus on the nuclear enterprise to be Department-wide, 
and our report has specific recommendations on what has to be 
done to fix that. That is, you need flag officers or senior 
civilians whose daily focus is on the nuclear enterprise. You 
need it on the Air Staff, the Navy Staff, the major air 
commands, U.S. Strategic Command, the Joint Staff, et cetera, 
et cetera, et cetera.
    Our feeling was that if you restore that level of focus, 
you have gone a long way towards having a long-term reliable 
fix on this discipline issue.
    Senator Bill Nelson. General Darnell, there seems to be a 
disconnect here between the inspections and the actual 
performance. As a matter of fact, Minot usually received 
favorable inspection reports. So it seems that the inspections 
don't provide an accurate picture of the situation. So how does 
the Air Force address that?
    General Darnell. Senator, we've looked at that and, 
frankly, that's a valid observation and criticism. I will tell 
you that in any inspection there are going to be areas that 
you've isolated and you're focused on and others that you're 
not looking at as closely. A team has a finite amount of time 
to do that.
    We're looking at several different things actually. First 
of all, limiting the notice that we provide a unit prior to 
being inspected. We're looking closely at that. As you well 
know, if the unit's preparing to be inspected and they know 
when the inspection is and they've been given a significant 
amount of time, then they're going to prepare for it in certain 
ways. We think that there may be some value to a limited notice 
inspection for units, so we're looking at that.
    Elements of our Nuclear Security Inspection and our 
Operational Readiness Inspection. We still think it's valid 
that we have them separated, but we think there are things 
about each inspection procedurally that could be tightened up. 
There has been some discussion about combining both. I think 
right now, I don't think we're leaning that way.
    But I know General Sams, who is our Inspector General for 
the Air Force, has a number of proposals that he is working on 
that he will propose to the Chief of Staff in probably another 
4 to 6 weeks.
    Senator Bill Nelson. General Raaberg, you actually found 
where some of the inspection teams were cherry-picked. Is this 
a real problem in the Air Force?
    General Raaberg. When I went back and looked at all the 
inspections, all the way back to 1996, to be a little more 
precise, in my report I indicated that there were in fact 
findings, some noncompliance. But those are not uncommon in any 
of those type inspections. In fact, generally they're cleared 
up either during the inspection or shortly after the 
inspection.
    The key thing was there was no indicator that those 
deficiencies would be identified or any deficiencies identified 
in the inspections that led to this actual incident itself.
    Sir, I'm not aware of the issue you were discussing just 
now.
    Senator Bill Nelson. Are we talking, is your answer----
    Senator Warner. Has your time, I believe, expired?
    Senator Bill Nelson. It probably has.
    Senator Warner. I think we'd like to accommodate Senator 
Thune.
    Senator Bill Nelson. Of course.
    Senator Warner. Then our open session will be concluded. 
All the Senators are invited to put questions into the record. 
So I thank the Senator very much.
    Senator Thune, you could wrap it up for us, and then we'll 
reconvene in S-407.
    Senator Bill Nelson. Mr. Chairman, I just want one other 
question for the record. Is the cherry picking limited just to 
the nuclear inspections? He can supply that for the record.
    [The information referred to follows:]

    The review of past inspections conducted during the Commander's 
Directed Investigation (CDI) of the incident didn't reveal any evidence 
of ``cherry picking.''
    The CDI that I led on behalf of the Commander of Air Combat Command 
did not assess the entire nuclear inspection process across the Air 
Force. The investigation was focused on past inspections that may have 
revealed issues to how the unauthorized transfer of nuclear warhead 
incident occurred. Therefore, I am not in a position to comment on the 
nature of other inspections which were outside the review's assessment.
    The Air Force Blue Ribbon Review (BRR) led by Major General Peyer 
documented in their report that the current Inspector General (IG) 
inspection process regarding Nuclear Surety Inspections was scheduled 
as much as 18 months in advance of the unit's visit. As such, local 
commanders were able to plan accordingly to ensure their unit's 
readiness was at peak performance for the inspection. This allowed 
commanders to pick their very best people, equipment, and often 
negotiate the visit schedule that best supported the unit's mission. 
This, the BRR found, led to many units' ``cherry-picking'' their best 
and brightest and in the opinion of the review, did not present the 
true capability of the unit. The BRR thus recommended the IG address 
the possibility of transitioning to a no-notice or very limited notice 
inspection process.
    The Air Force is reviewing the nuclear inspection regime to 
determine if we need to make adjustments to the scope and timing of our 
inspection process.

    Senator Warner. Good.
    Chairman Levin. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much for being here this morning. This 
is a very serious incident and I have a particular interest in 
it, serving both as the ranking member of the Readiness 
Subcommittee and on the Strategic Forces Subcommittee. I think 
this incident illustrates an important point and that is that 
everyone is human and humans make mistakes.
    That said, obviously we can't tolerate mistakes on a 
subject that is this important. Our system has to be robust 
enough to protect us from human error. While I have every 
confidence in the system, while this subject is very much at 
the forefront of our minds, my concern would be that as we get 
farther away in time from this incident that we'll have the 
same loss of focus and perhaps erosion of procedures.
    So what I'd like to do briefly this morning is I have some 
questions that I'd be happy to submit for the record, but I 
would like to at least ask a couple of questions, and maybe 
start with kind of the broad view, the 30,000 foot view, if you 
will. For that question, General Welch, I would simply say that 
your report discusses a long-term perception that nuclear 
forces and the nuclear deterrent mission are increasingly 
devalued.
    I guess the question is, in your view how do we regain the 
focus and value of this mission, given current events in Iraq 
and Afghanistan?
    General Welch. Certainly the DOD and national security 
leaders have plenty to occupy their attention. But if you will 
search the Internet or anyplace else you might like to search 
for statements from the senior leadership emphasizing the 
importance of the strategic nuclear mission, I think you will 
search in vain. So that the people out in the field who 
maintain these weapons are bright people. They read, they 
listen. Unless they hear some statements from senior people in 
this government that what they do is important, they will only 
hear those who say that we should get rid of these weapons, 
that they're not important, that we don't need them any more. 
They hear that drum beat and it is widely publicized, and you 
don't hear the counter from leaders that say: Yes, it is 
important; nuclear deterrence remains a key issue.
    So I don't think it's any more complicated than that, sir.
    Senator Thune. How would you gauge the current health of 
the DOD nuclear weapons surety and safety?
    General Welch. I think we have uncovered no safety issues, 
although there are some scenarios where two or three things can 
go wrong and you might be concerned. But most of our concerns 
have been about surety. If you look at all the areas and all 
the ways that we have to store and handle these weapons in 
order to perform the mission, it just requires, we believe, 
more resources and more attention than they're getting.
    Now, that does not mean that the weapons are not secure. 
They are as secure as they have ever been. It just means that, 
as the standard goes up, which it has, there are technologies 
that can be brought to bear. Some are not brought to bear 
because of legal concerns. There are also resource needs that 
are identified, but there are other priorities.
    We are not in the business of telling the Department what 
their priorities should be. We are in the business of 
identifying where we think the capability gaps are, and we have 
done so.
    Senator Thune. General Peyer, in your blue ribbon review 
you note: ``A consistent observation permeating this review is 
the friction between the need for surety perfection and 
operating in an environment of tightly constrained resources.'' 
In your view, how do we best overcome that friction?
    General Peyer. We've already taken many steps. Balancing 
the resources and the requirement is constantly on the plate of 
our senior leaders. So as we looked at the blue ribbon review 
and offered very specific areas where some investment and some 
resources could be applied to ensure and enhance our nuclear 
surety program, we've already submitted an unfunded 
requirements list. I believe that was submitted on Friday, and 
that would be for an unfunded list. As we go into the fiscal 
year 2010 program objective memorandum (POM), we will pick up 
on those and include those in our POM. So we've already begun 
that realignment of priorities within our budget.
    Senator Thune. I appreciate that answer, that with 
constrained resources it's a challenge, and we're all facing 
the challenge of trying to do a lot of things with a lot of 
competing demands and a very limited amount of resources. But 
how do you think we got to where we didn't allocate enough to 
ensure nuclear weapons surety and safety, even in an 
environment where we have constrained resources?
    General Peyer. Senator, our review found that we still have 
nuclear surety and it's a strong program. The constrained 
resources does drive some mitigation strategies that we have. A 
lot of times, if you don't have an asset you'll apply people 
instead of an asset that you don't have, for example a piece of 
equipment. Our aging infrastructure, test equipment for 
example, nuclear weapons test equipment, is 25 or 30 years old. 
So definitely a relook at recapitalizing that.
    So as we've gone forward with our resource decisions we are 
always analyzing exactly where those shortfalls are and we work 
mitigation strategies to be able to reduce the risk.
    Senator Thune. I see my time is up. I think we have a vote 
on. So, Mr. Chairman, I do have a couple other questions, but 
I'd be happy to enter those for the record.
    Chairman Levin. You could take another minute or 2 if you 
want.
    Senator Thune. Let me just, if I could, ask General 
Darnell. You're in charge of day-to-day operations for the Air 
Force and I understand that the Air Force recently put out a 
new instruction on nuclear weapons maintenance procedures. I 
guess could you talk a little bit about what that instruction 
changes, as well as some of the other steps that we've already 
taken that will ensure that there is an appropriate long-term 
fix?
    General Darnell. Senator, custody transfer and 
accountability have been several areas that we've looked at, as 
well as tightening up standards on logistics movements, 
security, and safety. We had some procedures, scheduling 
procedures, that were violated there at Minot and those have 
been fixed through a different venue, through Air Force 
Instruction 21-205.
    Most of the focus has been there in the logistical area to 
ensure we tighten up those processes.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Let me just ask a couple more questions on this issue of 
whether plutonium can be spread without a detonation. Just 
checking with a member of my staff, who I think is an expert on 
the subject, it says that what happened in Spain in apparently 
the late 1960s or early 1970s, the reference that Senator 
Nelson made, was where two American planes crashed, there was 
no nuclear detonation, the weapons did not go critical, but 
plutonium was scattered, and they're still cleaning up that 
plutonium 30 years later.
    So General Darnell, we'll need you to clarify that for the 
record if you would, or any of you, if you want to comment on 
that for the record. But it's a very important point.
    Now, we want to secure these weapons in any event because 
we want to secure them against theft. We've spent a lot of time 
on securing nuclear weapons around the world. We have Nunn-
Lugar, which spends billions of dollars securing nuclear 
material because we don't want them to fall into the wrong 
hands.
    But the question of whether or not planes that either crash 
or have to jettison their weight because, their cargo, because 
they're going to crash or whatever, surely it makes a 
difference as to whether or not those pilots know they have 
nuclear weapons, and it makes a difference for a number of 
reasons. But one of them is that in the case of a crash or in 
case of jettisoning, according to our information, the weapons 
can indeed release plutonium, which would be highly dangerous 
without a nuclear or high explosive detonation or without going 
critical.
    I would welcome any further comment from our panelists on 
that at this point if you want to add anything. But if not, I 
would ask General Darnell for the record if you would clarify 
this point.
    [The information referred to follows:]

    Plutonium dispersal is virtually impossible without a high 
explosive detonation. The W80 warhead is designed to resist detonation 
and remain intact in an accident or jettison scenario. The W80 utilizes 
insensitive high explosive (IHE) technology. IHE is designed to 
decompose rather than detonate in a fire. The weapons were never armed 
and the release of plutonium would have been highly unlikely in the 
event of a crash or jettisoning scenario.

    Chairman Levin. Senator Warner, do you want to add anything 
before we go over to S-407 and vote, not in that order?
    Senator Warner. Yes. Mr. Chairman, I just wish to point out 
that it appears that you've had some clear manifestation here 
of a breakdown in culture and so forth. But the inspection 
regime did not catch it. Does this now require you to go back 
and examine how you're going to reestablish the inspection 
regime so that we won't have a repeat of this? In other words, 
if this thing had persisted, this type of breakdown in culture, 
for maybe a decade or more, clearly the periodic checks that go 
on just didn't work out. Now you have to write a new system of 
how you're going to inspect for these potential defects again?
    General Darnell. Senator Warner, that's an area that we're 
looking at very closely. Obviously, inspection-wise there are 
areas that could be tightened up. Lieutenant General Ron Sams, 
who is our inspector general, already has several proposals 
that he wants to take to the next meeting that he has with 
General Moseley and review those.
    But as importantly is working with our Defense Threat 
Reduction Agency partners and others as well, and we're 
committed to doing that and we've already begun.
    Senator Warner. Anybody else want to comment on that?
    General Welch. Our report found that the problem with the 
inspections is the scope is just too limited. For operational 
readiness inspections, over time the scope has been more and 
more limited, to the point where they really don't demonstrate 
operational readiness.
    Senator Warner. That's a pretty dramatic observation, 
General.
    Thank you, Mr. Chairman. I think we've had a good hearing.
    Chairman Levin. Thank you, Senator Warner.
    Now, we're going to adjourn to S-407 and we'll be coming in 
and out, a number of us, because we have eight rollcall votes 
scheduled in a row this morning, with 10 minutes each. So it's 
going to be a little bit chaotic. We very much appreciate all 
the work you've put in on this matter, and we will see you all 
up in S-407 as soon as we can get there.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                             SPAIN INCIDENT

    1. Senator Levin. General Darnell, in the 1966 incident in Spain, 
there was a mid-air collision involving a B-2 and a tanker aircraft. 
When two of the nuclear weapons fell to the ground, the conventional 
high explosive in the nuclear weapon detonated. This explosion 
scattered the plutonium in the weapons over a broad area. A second 
accident occurred in 1968 when a B-52 crashed on landing and the 
resulting fire caused a detonation of the conventional explosive 
resulting in plutonium being scattered, although over a smaller area 
than in the accident in Spain. There was no nuclear detonation in 
either accident, correct?
    General Darnell. Correct, there was no nuclear detonation in either 
accident.

                                  W80

    2. Senator Levin. General Darnell, although the case on the W80 is 
designed not to break open, if it did, is there a possibility that the 
plutonium pit would also break, thereby exposing plutonium to the 
atmosphere?
    General Darnell. There is a very small, albeit not zero, 
probability of plutonium release by mechanical means (crush, puncture, 
etc.) in an aircraft accident. However the safety features of the W80 
virtually eliminates the possibility of plutonium release in normal 
environments, abnormal environments, and most combinations of abnormal 
environments.

    3. Senator Levin. General Darnell, although the conventional 
explosive on the W80 is designed not detonate in the event of a fire, 
is it possible that there would nevertheless still be an adverse effect 
on the plutonium, depending on the temperature and duration of the 
fire?
    General Darnell. The W80 contains insensitive high explosive (IHE), 
as opposed to conventional high explosive (CHE) used in older designs. 
Some melting of the plutonium may occur, depending on the temperature 
and duration of the fire.

    4. Senator Levin. General Darnell, if the case on the W80 cracked 
and there were a fire, what is the possible effect on the plutonium?
    General Darnell. The use of IHE in the W80 has various advantages 
over CHEs used in older designs such that it is less sensitive to 
abnormal environments. One such advantage is its resistance to 
detonation from induced heat from a fuel fire. Some melting of the 
plutonium may occur, depending on the temperature and duration of the 
fire. However, since the IHE would not detonate, no plutonium dispersal 
would occur.

    5. Senator Levin. General Darnell, if the pylon or an individual 
missile was dropped during a severe storm, are there concerns about the 
effect on the W80 if the case cracked, or if the case remained intact?
    General Darnell. Any such event would be viewed with concern. 
However, the W80 was designed and tested to withstand conditions that 
might occur in transport and handling, to include being dropped while 
mounted in a cruise missile.

    6. Senator Levin. General Darnell, are there any circumstances 
under which the conventional explosive in the W80 would detonate?
    General Darnell. The W80 contains IHE, as opposed to CHE used in 
older designs. IHE was developed to reduce vulnerability to fire and 
impact, and virtually eliminates the possibility of accidental high 
explosive detonation in normal environments, abnormal environments, and 
most combinations of abnormal environments.
                                 ______
                                 
               Questions Submitted by Senator John Warner

               NUCLEAR OPERATIONAL READINESS INSPECTIONS

    7. Senator Warner. General Peyer, recommendation 12 of the Blue 
Ribbon Review calls for the consolidation of responsibilities for 
conducting nuclear surety inspections (NSI) into a single Air Force NSI 
team and conducting NSIs on a limited- or no-notice basis. What is the 
difference between a NSI and a nuclear operational readiness inspection 
(NORI)?
    General Peyer. An NSI is a compliance-based inspection that 
evaluates a unit's ability to manage nuclear resources and comply with 
all nuclear surety standards. A ``Satisfactory'' rating is given when a 
unit clearly demonstrates that it can reliably handle nuclear weapons 
in a safe and secure environment. NSIs are conducted at intervals not 
to exceed 18 months and include evaluations of weapons maintenance 
technical operations, storage and maintenance facilities, security, 
safety, and logistics movement, among others areas. Successful 
completion of an NSI validates unit nuclear surety and is the basis 
upon which Major Command Commanders certify their units to conduct 
nuclear operations. A NORI evaluates a unit's capability to meet their 
nuclear wartime operational mission requirements (i.e., operational 
employment of nuclear weapons). A unit must demonstrate the capability 
to safely and reliably handle nuclear weapons via an NSI before they 
can perform operations required by a NORI. There are instances where 
both inspections evaluate common tasks and both cover nuclear surety. 
An NSI provides more frequent checks on unit compliance related to 
nuclear surety rules.

    8. Senator Warner. General Peyer, which inspection reviews the 
entire process from when a weapon is scheduled for transportation to 
when it is loaded on the aircraft prior to departure?
    General Peyer. Both NSIs and NORIs look at transportation of 
nuclear weapons. This is an example where NSIs and NORIs overlap one 
another. Transportation to wartime (combat) aircraft is inspected 
during both NSIs and NORIs. However, the peacetime transportation of 
nuclear weapons is only evaluated during NSIs (i.e., movement of a 
weapon via prime nuclear airlift (C-17)). Peacetime movement of nuclear 
weapons is not part of a unit wartime operational mission and is 
therefore not evaluated during a NORI.

    9. Senator Warner. General Peyer, recommendation 12 deals only with 
NSI. If the problem is potentially associated with nuclear operational 
readiness, then why is there not a corresponding recommendation to 
bolster NORIs, to include no-notice inspections?
    General Peyer. While nuclear surety and operational readiness do 
overlap, several areas of our Blue Ribbon Review (BRR) charter were 
really directed toward elements that influence the likely outcome of 
NSIs, such as the training associated with the operation, maintenance, 
storage, handling, transport and security of U.S. Air Force nuclear 
weapons systems. However, the Defense Science Board Permanent Task 
Force on Nuclear Weapons Surety recently completed an independent 
assessment on the August 30, 2007, unauthorized movement of nuclear 
warheads. The report included a recommendation to review the scope, 
scale, and duration of NSIs and NORIs. This review is currently ongoing 
and the Air Force Nuclear General Officers Steering Group (AFNGOSG), 
comprised of the most senior leadership within the Air Force nuclear 
community, validated the need to conduct this review.

                   STATE OF THE NUCLEAR MISSION FORCE

    10. Senator Warner. General Peyer, in your report, you state that 
previous reports and studies over the past two decades identified many 
of the observations and recommendations contained in your report. One 
such report, the Vice Chief of Staff's Institutional Support Review/
Special Management Review from 1998 is particularly mentioned having 
many parallel conclusions. If the state of the nuclear mission force 
was in decline for the past two decades, yet current inspection 
processes failed to demonstrate that decline, is not that an indictment 
of the current inspection regime?
    General Raaberg. I don't believe that to be true. NSIs assess a 
specific unit's compliance with nuclear surety standards, and the 
unit's ability to reliably handle nuclear weapons in a safe and secure 
manner. The focus of NSIs is not on the overall nuclear mission force, 
nor do they assess Air Force cultural change. I would submit though, 
that despite the end of the Cold War, and the change from a nuclear-
centered Air Force to a conventionally-centered Air Force, our 
inspection system has been a primary contributor toward keeping airmen 
focused on nuclear surety and nuclear operations. Our nuclear-capable 
units are inspected on an 18-month cycle, which is more frequent than 
our conventional operations. Over the years our inspection system has 
identified deficiencies and analyzed trends related to the decline in 
requisite nuclear experience throughout the nuclear community, and 
these deficiencies and subsequent corrective actions have been 
monitored by the Air Force's most senior leadership within the nuclear 
community . . . the AFNGOSG, as well as the Inspectors General 
responsible for conducting the inspections.

    11. Senator Warner. General Welch, in your report you also mention 
several reports over the past decade that called for a refocus on the 
nuclear mission. Despite the numerous studies, few, if any, inspections 
showed any concerns. If the state of the nuclear mission force was in 
decline for the past two decades, yet current inspection processes 
failed to demonstrate that decline, is not that an indictment of the 
current inspection regime?
    General Welch. As noted in the report, corrective actions were 
implemented for many of the findings in the reports, but the corrective 
actions were not lasting as attention to the mission waned above the 
wing level. The inspection teams performed their assigned functions to 
the apparent satisfaction of the leadership, The problem was that there 
was not a commitment to the stressing level of demand needed to 
discover the deficiencies.

                    EROSION OF PROCEDURES OVER TIME

    12. Senator Warner. General Welch, you state, ``The process and 
systemic problems that allowed such an incident have developed over 
more than a decade and have the potential for much more serious 
consequences.'' However, both installations involved were certified 
through the current inspection processes as being capable of fulfilling 
their stated mission without reservation. Given the lack of ability of 
the inspection processes to uncover the systemic problems, how can we 
have confidence in the inspection processes?
    General Welch. As noted above, the individual inspections must 
stress the unit sufficiently to uncover deficiencies. In the past era, 
the inspected unit was required to generate the foil war plan 
capability. That stressing demand provided confidence in the inspection 
outcomes. My understanding is that the Combatant Command is demanding a 
return to that standard and that the Air Force will support it.

    13. Senator Warner. General Welch, if this has been a systemic 
problem, is culpability limited only to the two wing commanders?
    General Welch. I think it is clear that the neglect of the nuclear 
enterprise was widespread, there has been little push-back on that 
conclusion, and most of the entities with nuclear enterprise 
responsibilities are taking action to restore the proper level of 
attention.

                        NUCLEAR CODES OF CONDUCT

    14. Senator Warner. General Welch, Admiral Rickover, who is 
considered the Father of the Nuclear Navy, concerned himself very 
deeply and directly with establishing and maintaining the 
organizational culture of the naval nuclear propulsion program. In 
1982, in a speech he gave at Columbia University which he titled, 
``Doing a Job'', he described the essential elements of this 
organizational culture--including the following: ``The man in charge 
must concern himself with details. If he does not consider them 
important, neither will his subordinates . . . it is hard and 
monotonous to pay attention to seemingly minor matters . . . but when 
the details are ignored, the project fails. No infusion of policy or 
lofty ideals can then correct the situation.''
    Are you confident that the recommendations laid out in the reviews 
of this matter, when implemented, will reestablish the organizational 
culture necessary to carry out a mission of such high consequence?
    General Welch. General LeMay established a similar culture in 
Strategic Air Command and that culture continued through decades of 
successors leading Strategic Air Command. That culture endures to a 
large degree in the Air Force ICBM forces. That same culture endures to 
a large degree in the Navy nuclear forces long after Admiral Rickover's 
departure. But these parts of the nuclear enterprise maintain a single 
focus on a single mission and that strongly supports a continuing 
culture. However, even in these forces, the culture is impacted by a 
decline in the level of senior attention to the mission and the 
widespread perception that what they do is of declining value in the 
public perception. In the case of the bomber forces, the decline in the 
culture was greatly accelerated by the demands on the bomber force for 
support of conventional operations, This demand is the product of an 
extraordinarily valuable capability to support ongoing combat 
operations. This demand multiplied and accelerated the impact of the 
decline in senior level and national attention.
    The only assurance of a culture suitable to a mission of such high 
consequence is restored and lasting senior level attention and national 
support. Actions are underway to provide the first. I have no 
projection on the second.

         DISTINGUISHING THE NUCLEAR MISSION FROM OTHER MISSIONS

    15. Senator Warner. General Raaberg, General Chilton, Commander, 
United States Strategic Command (STRATCOM), spoke to an audience in 
Washington, DC, last month and was asked to give his thoughts regarding 
how the nuclear mission compares to the other missions of STRATCOM. He 
gave the following answer: ``We have a lot of balls we juggle every day 
in this command. All but one of them are rubber. One is crystal. Most 
of them that we drop, they're going to bounce. We can pick them back 
up, throw them back into the stream and juggle them. But the nuclear 
mission is a crystal ball. We cannot afford to drop that. This is a 
mission area where we as human beings are challenged to be perfect. We 
are not perfect. That is our challenge.'' Do you believe the Air Force 
has a similarly clear view of what distinguishes the nuclear mission 
from its other mission?
    General Raaberg. Yes, I do. The Air Force nuclear mission is a ``no 
fail'' business. We have rigid procedures in place to help our airmen 
in their quest to be perfect. However, my investigation revealed an 
erosion of our nuclear focus in some areas. The calculus has changed 
over the years as we moved away from a nuclear deterrent bomber force 
on constant alert. We used to be near a 1-to-1 nuclear to conventional 
ratio. Today's ratio is closer to 1-to-20. Our challenge is to take the 
right measures to balance the equation and refocus our nuclear 
enterprise. We're moving in the right direction to do just that as we 
prosecute the collective recommendations from the recent 
investigations.
    As a side note, I didn't observe the same erosion in the 
Intercontinental Ballistic Missile Wing at Minot Air Force Base. Their 
calculus has remained constant over the years.

                       MISSION FOCUS AND TRAINING

    16. Senator Warner. General Peyer, appendix F of your review lists 
the many questions you posited to the wings. If you can, please 
summarize the answers you received to two of them: On mission focus, 
``Are inspection results indicative of unit capability?'' and on 
training, ``Do you believe Air Force training requirements adequately 
prepare the members of your unit to accomplish their nuclear 
responsibilities?''
    General Peyer. These questions were presented to leaders at the 
squadron, group and wing levels. In response to the question, ``Are 
inspection results indicative of unit capability?'', there was almost 
an even split between those who stated `affirmative' versus `negative.' 
Those responding `affirmative' indicated the inspections are a fair 
assessment. The negative responses were diverse, however, there was a 
recurring suggestion to conduct unannounced inspections, and this is a 
suggestion the Air Force Inspector General is exploring. While our 
current policies do not preclude no-notice inspections, the Inspector 
General is exploring the feasibility of requiring no-notice 
inspections. In response to the question ``Do you believe Air Force 
training requirements adequately prepare the members of your unit to 
accomplish their nuclear responsibilities?'', most respondents stated 
`affirmative'. However, there were concerns that declining experience 
could potentially be linked to a reduction in training frequency and 
quality. Several recommendations in our BRR addressed training needs. 
One in particular recommended providing more robust training to U.S. 
Air Force personnel to reinforce the primacy of the nuclear mission 
(BRR Recommendation #3.2.2.3) and the Deputy Chief of Staff for 
Operations, Plans, and Requirements (AF A3/5) has taken this 
recommendation for action and is evaluating training needs.

              ENHANCING NUCLEAR SCIENCE AS A CAREER FIELD

    17. Senator Warner. General Welch, your report, as well as the Blue 
Ribbon Panel report, both found that the nuclear mission has been 
devalued and that, as a result, it is challenging to recruit and retain 
the best and brightest young airmen into nuclear-related positions. The 
civilian nuclear power industry experienced similar challenges after 
the Three Mile Island incident, and the subsequent cancellation of most 
new power plant orders in the United States. This Nation is still 
dependent, however, on existing nuclear power plants for 20 percent of 
our electricity generation. How do we, as an Air Force, or as a Nation, 
address the challenge of attracting young people to fields, such as 
nuclear science, upon which our national security and our prosperity 
depend?
    General Welch. This question is well beyond the scope of the 
Permanent Task Force report so my answer is a personal view informed by 
more than two decades of interface with the Department of Defense (DOD) 
and the Department of Energy nuclear enterprise. Those who claim we no 
longer need a viable nuclear deterrent and those who oppose nuclear 
power plants receive widespread attention to include editorials in 
major newspapers and invitations to speak in public forums. In 
contrast, those who believe that nuclear capabilities remain critically 
important to national security and that nuclear power provides a safe 
and clean contribution to energy independence are largely silent. 
Further, when they emerge from the state of silence, they are unheard. 
Those who spend their daily lives in the nuclear enterprise are bright 
and well read and they are very aware of all of the above.
    The supporters of a reliable, safe, and secure nuclear deterrent 
and supporters of nuclear power for electricity have a more compelling 
story and can claim to be more aligned with the interests of the 
American public. For example, the poster child for opponents of nuclear 
power is Three Mile Island. The poster child for those who support 
nuclear power should be 104 nuclear power plants in the United States 
that have been operating safely and efficiently for years, that meet 
one-fifth of the Nation's electrical power needs, and that could be 
expanded to meet a much larger share of that growing need. Yet, few 
Americans are aware of this large, safe, and efficient nuclear power 
industry in the United Stales. Until informed supporters of nuclear 
deterrence and nuclear power speak up, it will be difficult to attract 
and retain the needed talent

    18. Senator Warner. General Welch, how do we revive these fields as 
the prestige areas they once were?
    General Welch. The answer to 17 applies. In addition, within DOD, 
there must be clearly articulated and visible senior level support for 
the importance of the nuclear enterprise, regardless of the shrinking 
size of the enterprise needed to meet national security needs in the 
current and expected global environment.

    [Whereupon, at 10:25 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
